   AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
BUREAU OF JUSTICE ASSISTANCE GRANT AWARDED TO
        THE JOHN MARSHALL LAW SCHOOL
        VETERANS LEGAL SUPPORT CLINIC
               CHICAGO, ILLINOIS


           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


           Audit Report GR-50-14-001
                 November 2013
      AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
   BUREAU OF JUSTICE ASSISTANCE GRANT AWARDED TO
           THE JOHN MARSHALL LAW SCHOOL
           VETERANS LEGAL SUPPORT CLINIC
                  CHICAGO, ILLINOIS

                              EXECUTIVE SUMMARY

       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of an Office of Justice Programs (OJP),
Bureau of Justice Assistance (BJA), Edward Byrne Memorial Discretionary
grant for $350,000 awarded to the John Marshall Law School (JMLS) in
Chicago, Illinois. JMLS received grant number 2010-DD-BX-0685 to support
the JMLS’s Veterans Legal Support Center & Clinic (VLSC) in its work in the
field of veterans law. 1 The purpose of the grant is to: (1) allow JMLS to
continue to work with and collect information on the success of the Illinois
Veterans Treatment Court, (2) collect information on and implement a
replicable approach for veterans who appear in the Federal District Court for
Northern Illinois on “petty offenses,” (3) host a conference on veterans and
domestic violence, and (4) replicate the VLSC at other law schools
throughout the United States. 2

      The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel and indirect costs; (4) budget
management and control; (5) local matching funds; (6) property
management; (7) program income; (8) federal financial reports and
progress reports; (9) grant requirements; (10) program performance and
accomplishments; and (11) monitoring of sub-grantees and contractors. We
determined that local match, program income, and oversight of sub-grantees
and contractors were not applicable to this grant.

      As of February 1, 2013, the grantee had drawn down $249,180 and
had recorded expenditures of $249,180 in its grant accounting records. We

       1
         The JMLS Veterans Legal Support Center & Clinic assists veterans on any legal
issue that could impact a veteran or soldier currently serving in the U.S. military.
       2
          The Illinois Veterans Treatment Court is an alternative court created by Illinois
legislation specifically to handle criminal issues presented by veterans. Federal “petty
offenses” are misdemeanors committed on federal property.
examined JMLS’s accounting records, required financial and progress reports,
and operating policies and procedures, and we identified weaknesses in
JMLS’s financial reporting and grant-related expenditures. We tested
$47,225 of expenditures, and we questioned $15,455 as unallowable.
Specifically, we found:

     •   JMLS did not follow OJP guidelines related to hotel rates for
         conference attendees. As a result, we questioned $15,455 in
         unallowable hotel costs.

     •   JMLS filed nine Federal Financial Reports that did not match its
         accounting records.

     •   JMLS did not receive the full amount of one drawdown.

      Our report contains three recommendations to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objective, scope, and methodology are
discussed in Appendix I of the report.




                                     - ii -
                                   Table of Contents

INTRODUCTION 1

 Background ................................................................................ 1
 Our Audit Approach ..................................................................... 2

FINDINGS AND RECOMMENDATIONS.......................................... 4

Accounting and Internal Controls ......................................................4
Grant Drawdowns ...........................................................................6
Grant Expenditures .........................................................................6
Budget Management and Control ......................................................9
Grant Reporting .............................................................................9
Program Performance and Accomplishments .................................... 11
Views of Responsible Officials ......................................................... 11
Recommendations ........................................................................ 11

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ........... 12
APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS ...... 14
APPENDIX III - AUDITEE RESPONSE ........................................ 15
APPENDIX IV - U.S. DEPARTMENT OF JUSTICE RESPONSE ....... 18
APPENDIX V - OFFICE OF THE INSPECTOR GENERAL ANALYSIS
               AND SUMMARY OF ACTIONS NECESSARY
               TO CLOSE THE REPORT .................................. 21
                                   INTRODUCTION

       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of an Office of Justice Programs (OJP),
Bureau of Justice Assistance (BJA) Byrne Memorial Grant awarded to the John
Marshall Law School (JMLS) in Chicago, Illinois. OJP awarded JMLS $350,000
under grant number 2010-DD-BX-0685 to: (1) allow JMLS to continue to
work with and collect information on the success of the Illinois Veterans
Treatment Court, (2) collect information on and implement a replicable
approach for veterans who appear in the Federal District Court for Northern
Illinois on “petty offenses,” (3) host a conference on veterans and domestic
violence, and (4) replicate the VLSC at other law schools throughout the
United States. 3 Additionally, the grant allows JMLS to operate the JMLS
Veterans Legal Support Center & Clinic (VLSC), which allows law students to
work with veterans by helping them access educational and medical benefits.

     As shown in Table 1 below, OJP awarded JMLS a total of $350,000 to
implement the grant program.

            TABLE 1. BUREAU OF JUSTICE ASSISTANCE GRANT
             AWARDED TO THE JOHN MARSHALL LAW SCHOOL
               PROJECT    PROJECT
                                                    AWARD                 OBJECTIVE
 AWARD NUMBER START DATE END DATE
                                                    AMOUNT


                                                                  Work with and collect
                                                                  information on the success
                                                                  of veterans courts, collect
                                                                  information on and
                                                                  implement a replicable
 2010-DD-BX-0685       09/01/2010 08/31/2013        $350,000      approach for veterans who
                                                                  commit petty federal
                                                                  offenses, host a conference
                                                                  on veterans and domestic
                                                                  violence, and replicate the
                                                                  VLSC at other law schools.

Source: Office of Justice Programs

Background

     OJP’s mission is to increase public safety and improve the
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating
       3
          The Illinois Veterans Treatment Court is an alternative court created by Illinois
legislation specifically to handle criminal issues associated with veterans. Federal “petty
offenses” are misdemeanors committed on federal property.
state-of-the-art knowledge and practices across America by providing grants
for the implementation of these crime-fighting strategies. To support this
mission, BJA provides leadership and assistance to local criminal justice
programs that improve and reinforce the nation’s criminal justice system with
goals to reduce and prevent crime, violence, and drug abuse and to improve
the way in which the criminal justice system functions.

       JMLS is located in Chicago, Illinois, and operates various outreach
clinics that allow law students to gain experience by providing pro bono legal
advice under the guidance of supervising attorneys. According to JMLS, since
2007, the VLSC has served over 3,000 veterans by helping them access
educational and medical benefits.

        JMLS’s VLSC functions as an advocate for veterans identified in local,
state, and federal veterans courts. Veterans courts aim to assist those
veterans needing treatment for underlying issues that may have contributed
to the veteran’s offense. Underlying issues can include alcohol and substance
abuse, post-traumatic stress disorder, and other issues for which a veteran
may be eligible for treatment through veteran’s benefits provided by the
U.S. government. VLSC advocates are trained in veteran’s benefits
administration and assist veterans in navigating the claims system in order to
receive treatment. JMLS students work as advocates through the direction of
supervising attorneys, as well as manage a network of pro bono attorneys
who provide legal assistance. While the clinic itself does not provide pro bono
legal work, the advocacy experience provides students with exposure to
litigation practice and in-depth study of federal, state, and local laws
pertaining to veteran’s advocacy.

Our Audit Approach

      We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide, the Code of Federal
Regulations, Office of Management and Budget (OMB) Circulars, and the
award documents. We tested JMLS’s:

      •   Accounting and Internal Controls to determine whether the
          grantee had sufficient accounting and internal controls in place for
          the processing and payment of funds and controls were adequate to
          safeguard grant funds and ensure compliance with the terms and
          conditions of the grant;

      •   Grant Drawdowns to determine whether grant drawdowns were
          adequately supported in accordance with federal requirements;

      •   Grant Expenditures to determine the accuracy and allowability of
                                   -2-
         costs charged to the grant;

     •   Budget Management and Control to examine the amounts
         budgeted and the actual costs for each approved cost category and
         determine if the grantee deviated from the approved budget, and if
         so, if the grantee received the necessary approval;

     •   Federal Financial Reports (FFR) and Progress Reports to
         determine whether the required reports were submitted on time and
         accurately reflected grant activity; and

     •   Accomplishment of Grant Requirements and Objectives to
         determine if the grantee met or is capable of meeting the grant’s
         objectives and whether the grantee collected data and developed
         performance measures to assess accomplishment of the intended
         objectives.

      We also performed limited work and confirmed that JMLS did not
generate or receive program income, was not required to contribute any local
matching funds, and that funds were not awarded to sub-grantees or
contractors. We therefore performed no testing in these areas.




                                       -3-
               FINDINGS AND RECOMMENDATIONS

      We identified weaknesses in JMLS’s compliance with grant
      guidelines with respect to its expenditures and federal financial
      reports. Specifically, we found that JMLS did not comply with
      OJP guidelines relating to hotel rates for conference attendees.
      As a result, we questioned $15,455 in unallowable hotel costs.
      We also found that JMLS’s Federal Financial Reports did not
      accurately reflect grant expenditures.

       We performed audit work at JMLS’s campus in Chicago, Illinois, where
we obtained an understanding of the accounting system and reviewed a
sample of grant expenditures. We reviewed the criteria governing grant
activities, including the OJP Financial Guide, relevant OMB Circulars, and the
Code of Federal Regulations. In addition, we reviewed grant documents,
including the application, award, budgets, and financial and progress reports.
We also interviewed key JMLS personnel.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system should
ensure, among other things, the identification and accounting for receipt and
disposition of all funds, funds applied to each budget category included in the
approved award, expenditures governed by any special and general
provisions, and non-federal matching contributions.

       We reviewed JMLS’s financial management system and its policies and
procedures to assess JMLS’s risk of non-compliance with laws, regulations,
guidelines, and terms and conditions of the grant. To further assess risk, we
obtained an understanding of the reporting process, examined various grant
accounting records and reports prepared by JMLS, and interviewed JMLS
personnel regarding grant expenditures. Our testing revealed internal control
deficiencies that are explained in more detail in the following sections.

Financial Management System

       The OJP Financial Guide requires grantees to establish and maintain a
system of accounting and internal controls that adequately identifies and
classifies grant costs. The system must include controls to ensure that funds
and other resources are used optimally and expenditures of funds are in
conformance with the general and special conditions applicable to the
recipient. Further, the OJP Financial Guide states that grantees should
establish and maintain program accounts that will enable, on an individual
                                      -4-
basis, the separate identification and accounting of the receipt and disposition
of all funds and the application of all funds to each budget category included
within the approved award.

      We conducted a limited review of JMLS’s financial management system,
which included interviewing personnel and observing accounting activities and
processes. JMLS officials informed us that prior to our audit, they discovered
a discrepancy between JMLS’s payroll records and the detailed grant financial
records regarding student time charges. JMLS officials found that students
often failed to submit their timesheets in a timely manner. As a result, the
timing of payroll transactions differed from the timing of the transactions
entered in the detailed grant financial records. JMLS identified this problem
before our audit and implemented a solution to correct the payroll transaction
timing and recording issue. JMLS developed a DOJ grant-specific timesheet to
record student hours worked on the project and provided guidance to
students to turn timesheets in during the pay period in which they performed
the work. However, because JMLS officials did not recognize the fact that the
discrepancies crossed financial reporting quarters, the timing errors affected
grant drawdowns and FFRs. These effects are further detailed in the Grant
Drawdowns and Reporting sections of this report.

Audit

      According to the special conditions of the agreement, the OJP Financial
Guide, and OMB Circular A-133, any organization that expends $500,000 or
more in federal funds in the organization’s fiscal year is required to have a
single organization-wide audit conducted. As shown in Table 2, JMLS’s
expenditures of federal funds exceeded $500,000 in fiscal years (FY) 2010,
2011, and 2012. 4

                     TABLE 2. JOHN MARSHALL LAW SCHOOL’S
                        EXPENDITURES OF FEDERAL FUNDS
                       FISCAL YEARS 2010 THROUGH 2012
                FISCAL YEAR                2010             2011   2012

                 Total Federal         $53,971,951 $58,643,294 $55,102,587
                 Expenditures
             Source: JMLS’s Single Audit Reports




        4
            JMLS’s fiscal year is July 1 through June 30.
                                                -5-
      JMLS has had a Single Audit conducted by an independent accounting
firm for each of the previous 3 fiscal years in accordance with the provisions of
OMB Circular A-133. We reviewed the independent auditors’ assessments,
which disclosed no weaknesses, noncompliance issues, or crosscutting
findings related to JMLS’s grant management.

Grant Drawdowns

       We reviewed JMLS’s process for requesting reimbursement from OJP for
its grant-related costs to ensure that the requests were adequately supported
by official accounting records and were in accordance with federal
requirements. The grant project manager stated that they based drawdowns
on expenditures. When we first compared the grantee’s general grant ledger
to OJP’s record of drawdowns, we found that the drawdown amounts matched
the expenditures as recorded in the grant accounting records for each
drawdown period. Due to the delayed timesheet submission issue previously
discussed, subsequent adjusting entries made by the grantee to correct the
timing issue caused the drawdowns to be less than the expenditures for each
drawdown period. Overall, however, JMLS’s cumulative grant expenditures
matched its cumulative drawdowns.

      We believe that because JMLS drew down less during each drawdown
period than it had expended on the grant, and JMLS’s cumulative
expenditures match the total amount it drew down as February 1, 2013,
JMLS’s actions are in compliance with OJP guidelines.

      Our review of the drawdowns also revealed that JMLS requested a draw
of $22,574 on February 1, 2013, but only received $21,927, a difference of
$647. A JMLS official told us that they notified OJP of the error, and OJP
directed JMLS to contact the Department of the Treasury. The official stated
that the Department of the Treasury then referred JMLS back to OJP. As of
September 2013, this issued had not been resolved. We therefore
recommend that OJP resolve this issue.

Grant Expenditures

      The OJP Financial Guide requires that expenditures be accounted for and
be adequately supported. JMLS’s approved grant budget is detailed in
Table 3.




                                      -6-
           TABLE 3. JOHN MARSHALL LAW SCHOOL’S
 APPROVED GRANT BUDGET AMOUNTS AND DESCRIPTION OF COSTS
                          APPROVED
                           REVISED
    COST CATEGORY          BUDGET             DESCRIPTION OF PLANNED EXPENDITURES


       Personnel          $260,000 Salary for staff

     Fringe Benefits           0

            Travel          25,000    Travel to law schools and for conference speakers

           Supplies         18,550    Conference and promotional material

  Contract/Consultant       18,450    Hotel

            Other           28,000    Conference

       Equipment               0

      Construction             0

     Indirect Costs            0
     FEDERAL FUNDS        $350,000

      LOCAL MATCH             $0
   TOTAL PROJECT
        COSTS             $350,000
  Source: Office of Justice Programs and JMLS

      The majority of the budgeted expenditures were associated with
personnel costs. Costs included the annual salaries for a clinical director,
assistant clinical director, and a clinical grant liaison, and hourly wages for
10 JMLS students, who served as clinical advocates. The full-time project
director and assistant director served as the supervising attorneys for the law
school students who served as consultants to veterans using the VLSC.

      The grant also paid for a conference that JMLS held to discuss legal
issues facing veterans. The conference was an opportunity to explain the
VLSC program to other law schools with the intent for replication of the VLSC
to address veteran legal issues throughout the nation. 5 JMLS used grant
funds for lodging for out of town guest speakers, food and non-alcoholic
beverages for attendees during the conference seminar sessions, and
materials.

      We reviewed 25 grant expenditures to determine if costs charged to the
award were allowable, supported, and properly allocated in compliance with
grant requirements. We selected our judgmental sample of transactions from

       5
         JMLS also conducted a conference on veterans and domestic violence. This
conference occurred after the application for, but prior to the awarding of, the audited grant.
                                              -7-
JMLS’s general ledger. The selected transactions totaled $47,225 (19 percent)
of the total of $249,180 in expenses billed to the grant as of January 31,
2013. This included $18,185 in payroll costs and $29,039 in all other
categories. 6 We identified $15,455 in unallowable costs, which is discussed
below. Our review of the other sampled expenditures did not reveal any
discrepancies.

      During June 2011, JMLS used grant funds to hold a conference in
Chicago, Illinois, for 137 attendees for the purpose of sharing ideas with other
organizations involved with veteran’s courts, gathering data and information
for JMLS’s resource center, and explaining its veterans court program to other
law schools.

       As part of the conference, JMLS used grant funds to acquire hotel rooms
for 19 of the 137 attendees. According to the OJP Financial Guide, a grantee
must use General Services Administration (GSA) lodging rates when securing
lodging for conference attendees for any grant-funded conference that has
30 or more attendees. The OJP Financial Guide continues that in the event
the lodging rate is not the federal per diem rate or less, none of the lodging
costs associated with the event would be allowable costs to the award. At the
time the conference was held, the GSA maximum lodging rate for Chicago was
$166 per room per night. When we reviewed the hotel charges, we found that
JMLS paid $279 per night, considerably more per room than was allowed by
GSA. As shown in the Table 4 below, JMLS spent $15,455 in grant funds for
this lodging, all of which we question as unallowable. We explained this issue
to JMLS officials, and they stated that they understood our reasoning on the
issue.

                   TABLE 4. JOHN MARSHALL LAW SCHOOL’S
                   HOTEL COSTS ACCRUED FOR CONFERENCE

                        NUMBER of       DAILY
      NUMBER of           DAYS          ROOM       DAILY CITY AND
      ATTENDEES         ATTENDED       AMOUNT        STATE TAX         TOTAL AMOUNT

            10               2            $279           $43               $6,439


             8               3            $279           $43               $7,727


             1               4            $279           $43               $1,288


                                  Total                                   $15,455

     Source: JMLS


      6
          Throughout this report, differences in the total amounts are due to rounding.
                                             -8-
Budget Management and Control

       According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. Requests for
transfers of funds between budget categories of over 10 percent must be
submitted to OJP for approval. We reviewed JMLS’s records and determined
that it did not exceed the 10-percent transfer threshold.

Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. FFRs provide information on monies spent and the
unobligated amounts remaining in the grant. Categorical Assistance Progress
Reports provide information on the status of grant-funded activities and other
pertinent information.

Federal Financial Reports

      The OJP Financial Guide states that FFRs filed after October 1, 2009, are
due within 30 days after the end of the calendar quarter. We reviewed all
five quarters for which a report was required and determined that all required
reports were submitted within the required timeframe.

      We also reviewed all submitted FFRs for accuracy, and, as shown in
Table 5 below, we found that aside from the first FFR, for which there were no
expenditures, the reported expenditures on the FFRs did not reconcile to the
grantee’s grant accounting records. This occurred, in part, due to the
previously discussed delayed timesheet issue and the subsequent adjusting of
entries. These initial errors were compounded when a larger June 2011
expense was accounted for in the wrong period. JMLS also made general
ledger adjustments that, as of the end of our review period, have come to
within $282 of correcting the errors. JMLS officials told us that they are
working on procedures that will help ensure that these accounting errors do
not happen again. We recommend that JMLS submit to OJP corrected FFRs
for these reporting periods.




                                     -9-
             TABLE 5. FEDERAL FINANCIAL REPORT ACCURACY

                   FFR PERIOD      EXPENDITURES       EXPENDITURES
      FFR No.                       PER GENERAL                       DIFFERENCE
                    END DATE                            PER FFR
                                      LEDGER


         1         09/30/2010            $0               $0             $0
         2         12/30/2010          11,937            11,465          472
         3         03/31/2011          15,798            22,995         -7,197
         4         06/30/2011          30,071            44,392        -14,321
         5         09/30/2011          59,477            38,713        20,764
         6         12/31/2011          27,779            28,108         -329
         7         03/31/2012          24,079            24,093          -14
         8         06/30/2012          30,390            31,248         -858
         9         09/30/2012          26,745            25,873          872
         10        12/31/2012          22,903            22,574          329
      Source: Office of Justice Programs and JMLS

Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports are due semiannually on January 30 and July 30 for the life of the
grant. As shown in Table 6, we reviewed all progress reports and found that
all were submitted in a timely manner.

               TABLE 6. TIMELINESS OF PROGRESS REPORTS
      REPORT                                               DATE          DAYS
       NO.         REPORT PERIOD          DUE DATE       SUBMITTED       LATE
        1       09/01/10 - 12/31/10      01/30/2011      01/30/2011        0
        2       01/01/11 – 06/30/11      07/30/2011      07/29/2011        0
        3       07/01/11 – 12/31/11      01/30/2012      01/30/2012        0
        4       01/01/12 – 06/30/12      07/30/2012      07/30/2012        0
        5       07/01/12 – 12/31/12      01/30/2013      01/29/2013        0
     Source: Office of Justice Programs and JMLS

       We reviewed each of the progress reports submitted, and we found that
the reports listed the specific program activities that occurred during those
periods. The program goals, as outlined in the grant application, mirrored
what was reported in the progress reports as actual accomplishments and
activities conducted. In our judgment, the progress reports provided
adequate information to determine the status of the tasks undertaken for the
period.


                                        - 10 -
Program Performance and Accomplishments

      The purpose of the grant was to: (1) allow JMLS to continue to work
with and collect information on the success of the Illinois Veterans Treatment
Court; (2) collect information on and implement a replicable approach for
veterans who appear in the Federal District Court for Northern Illinois on
“petty offenses;” (3) host a conference on veterans and domestic violence;
and (4) replicate the VLSC at other law schools throughout the United States.

       We compared the grant application and supporting documents to the
accomplishments listed by the grantee in the progress reports, and we
determined that the grantee had completed each of its goals. JMLS stated
that it is currently putting together a final report on grant activities.

Views of Responsible Officials

      We discussed the results of our review with grantee officials throughout
the audit and at a formal exit conference, and we have included their
comments as appropriate.

Recommendations

We recommend that OJP:

1.   Resolve the $647 difference in the February 1, 2013, drawdown.

2.   Remedy the $15,455 in unallowable hotel conference expenditures.

3.   Ensure JMLS submits corrected FFRs for reporting periods
     December 30, 2010, through December 31, 2012.




                                    - 11 -
                                                                 APPENDIX I
         OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

       Our audit concentrated on, but was not limited to, the inception of the
grant on September 1, 2010, through January 31, 2013. This was an audit of
grant number 2010-DD-BX-0685 awarded to the JMLS Law School of Chicago,
Illinois for $350,000. In conducting our audit, we reviewed Federal Financial
Reports and progress reports and performed testing of grant expenditures,
including reviewing supporting accounting records. We judgmentally selected
a sample of expenditures, along with a review of internal controls and
procedures for the grant that we audited. Judgmental sampling design was
applied to obtain broad exposure to numerous facets of the grant reviewed,
such as dollar amounts, expenditure category, and risk. This non-statistical
sample design does not allow for projection of the test results to all grant
expenditures or internal controls and procedures. In total, the grantee had
expended $249,180 and drawn down $249,180 as of February 1, 2013. We
judgmentally selected 25 transactions, which included the 19 highest dollar
amounts as well as 6 other transactions.

      The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel and indirect costs; (4) budget management
and control; (5) local matching funds; (6) property management; (7) program
income; (8) federal financial reports and progress reports; (9) grant
requirements; (10) program performance and accomplishments; and
(11) monitoring of sub-grantees and contractors. We determined that local
match, program income, and oversight of sub-grantees and contractors were
not applicable to this grant.

      We performed limited testing of source documents to assess the
timeliness and accuracy of FFRs, reimbursement requests, expenditures, and

                                    - 12 -
progress reports; evaluated performance to grant objectives; and reviewed
the grant-related internal controls over the financial management system.
We tested invoices as of January 31, 2013. However, we did not test the
reliability of the financial management system as a whole and reliance on
computer-based data was not significant to our objective. We reviewed the
grantee’s past three Single Audit Reports, which were prepared under the
provisions of Office of Management and Budget Circular A-133. We reviewed
the independent auditor’s assessments, which disclosed no weaknesses or
noncompliance issues directly related to JMLS grant.




                                  - 13 -
                                                                           APPENDIX II


          SCHEDULE OF DOLLAR-RELATED FINDINGS

Description                                            Amount        Page

Questioned Costs 7

          Unallowable Hotel Expenses:                  $15,455         8
          Total Unallowable:                           $15,455


Net Questioned Costs…………………………….$15,455

____________________________________________________

Total Net Dollar-Related Findings……………$15,455




      7
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.
                                          - 14 -
                                                                              APPENDIX III
                                AUDITEE RESPONSE
                     The

                    JOHN MARSHALL LAW SCHOOL
                                       AT WORK• IN CHICAGO

                                                                                         Tel: 312.427.2737
                                                                                         Fax: 312.427.9974

October 14, 2013


Carol S. Taraszka
Regional Audit Manager
Chicago Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
600 West Madison Street, Suite 1121
Chicago, IL 60661-2590


Dear Ms. Taraszka,


This is response to the draft audit report dated September 27, 2013, from the Office of the Inspector
General (OIG), Chicago Regional Audit Office, to the Office of Justice Programs (OJP), related to an audit
of grant number 2010-DD-BX-0685 awarded by the Bureau of Justice Assistance to The John Marshall
Law School (JMLS).


In that report, the audit team made three recommendations. Below, we discuss our response to those
recommendations:


    1.   Remedy the $647 difference in the February 1, 2013 drawdown.
         JMLS response: This recommendation is really for the OJP. Our inquiries of the Department of
         Treasury indicated that the Department of Justice's remittance of $22,574 was netted against a
         debit charge of $647 submitted by a Veterans-related government office (office not specifically
         identified). Our request for further information has not yielded any reply. We have however,
         corrected our grant records to reflect a receipt of $22,574 for that drawdown, and have recorded
         the $647 as a charge to JMLS separate from grant records.


    2. Remedy the $15,455 in the unallowable hotel conference expenditures.
         JMLS response: The hotel arrangements were the most feasible that could be had for a
         guaranteed block of rooms in the geographical area deemed most conducive to conference
         success. The charge (at actual cost) was inadvertently charged to the grant because the
         conference organizers were unaware of the cost limits specific to grant-funded conferences.
         Since the choice left to organizers was very limited, the conference organizers would have

                             315 South Plymouth Court Chicago, Illinois 60604
                                              www.jmls.edu
                                                - 15 -
         opted to charge only the costs within the limits and have JMLS bear the difference. JMLS asks
         the DOJ to consider our alternative solution of allowing the cost up to the OJP Financial
         Guideline rate of $166, as the nature of the expense is allowable and necessary to the success
         of the conference, which was a crucial component in the achievement of program objectives.
         See attached Schedule 1.


     3. Ensure JMLS submits corrected FFRs for reporting periods December 30, 2010 through
         December 31, 2012.
         JMLS response: During the fiscal year, JMLS Business Office posts costs to its general ledger
         based on the date paid with the exception that at JMLS's year-end of August 31, expenses are
         adjusted to reflect expenses so that the fiscal year also includes those expenses paid after
         August 31 but should have been included ("accrued for") on the basis of invoice date.


         JMLS DOJ and Business Office staff members have prepared a schedule of revised FFRs based on
         expenses as they had been invoiced and will correct the FFRs as soon as the disposition of item
         #2 above has been determined by the OJP.


We thank the Department of Justice for the opportunity to participate in its grant programs. We are
happy to note that our program's objectives have been achieved and awareness has been generated so
that similar future programs will have an enhanced possibility of success.


If you have further questions, please do not hesitate to contact us at our email addresses
brian.clauss@jmls.edu and csah@jmls.edu. We look forward to our continued collaboration with the
Department of Justice.




Brian Clauss, Executive Director
The John Marshall Law School
Veterans Legal Support Center and Clinic




Cynthia t. Sah
The John Marshall Law School
Chief Financial Officer




                                                  - 16 -
Schedule 1
                                                Attendee
                                                 Days at
                                                 Charged
                                   Attendee       Rate of
                                    Days at     $279 and
                                   Allowable        $43
                        Number      Rate of     city/state
                           of      $166 per      tax per
Number of Number       Attendee       room         room
Attendees  of Days        Days        night        night     Variance
        10       2            20       $3,320       $6,440   ($3,120)
        8          3         24       $3,984       $7,728    ($3,744)
        1          4          4        $664        $1,288      ($624)
                                      $7,968      $15,456
             Total Proposed disallowed amount                ($7,488)




                                           - 17 -
                                                                            APPENDIX IV

         U.S. DEPARTMENT OF JUSTICE RESPONSE

                                                    U.S. Department of Justice

                                                    Office of Justice Programs

                                                  Office of Audit, Assessment, and Management




                                                 Washington, D.C. 20531




October 28, 2013


MEMORANDUM TO:               Carol S. Taraszka
                             Regional Audit Manager
                             Chicago Regional Audit Office
                             Office of the Inspector General

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Audit of the Office of Justice
                             Programs, Bureau of Justice Assistance Grant Awarded to the
                             John Marshall Law School Veterans Legal Support Clinic,
                             Chicago, Illinois

This memorandum is in reference to your correspondence, dated September 27, 2013,
transmitting the above-referenced draft audit report for the John Marshall Law School Veterans
Legal Support Clinic (JMLS). We consider the subject report resolved and request written
acceptance of this action from your office.

The draft report contains three recommendations and $15,455 in questioned costs. The
following is the Office of Justice Programs’ (OJP) analysis of the draft audit report
recommendations. For ease of review, the recommendations are restated in bold and are
followed by our response.

1.     We recommend that OJP resolve the $647 difference in the February 1, 2013
       drawdown.

       OJP agrees with the recommendation. OJP researched the $647 difference in the
       February 1, 2013 drawdown, and does not believe further action is needed. According
       to OJP’s records, a drawdown of $22,574 was disbursed to JMLS on February 1, 2013
       (see Attachment). In its response to the draft audit report, JMLS acknowledged that the
                                           - 18 -
       U.S. Department of Treasury netted a $647 JMLS veterans-related government office
       charge against the U.S. Department of Justice’s remittance of $22,574. As such, JMLS
       stated they have corrected their grant records to reflect receipt of the February 1, 2013
       drawdown of $22,574. Accordingly, the Office of Justice Programs requests closure of
       this recommendation.

2.     We recommend that OJP remedy the $15,455 in unallowable hotel conference
       expenditures.

       OJP agrees with the recommendation. We will coordinate with JMLS to remedy the
       $15,455 in unallowable hotel conference expenditures that were charged to grant
       number 2010-DD-BX-0685.

3.     We recommend that OJP ensure JMLS submits corrected Federal Financial
       Reports for reporting periods December 30, 2010, through December 31, 2012.

       OJP agrees with the recommendation. We will coordinate with JMLS to obtain a
       revised, final Federal Financial Report for grant number 2010-DD-BX-0685, to
       accurately reflect the cumulative Federal expenditures incurred, as of the end of the
       project period (i.e., August 31, 2013).

We appreciate the opportunity to review and comment on the draft audit report. If you have
any questions or require additional information, please contact Jeffery A. Haley, Deputy
Director, Audit and Review Division, on (202) 616-2936.

Attachment

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Denise O’Donnell
       Director
       Bureau of Justice Assistance

       Tracey Trautman
       Deputy Director for Programs
       Bureau of Justice Assistance

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Kerri Vitalo-Logan
       Grant Program Specialist
       Bureau of Justice Assistance

       Leigh A. Benda
       Chief Financial Officer

                                            - 19 -
cc:   Christal McNeil-Wright
      Associate Chief Financial Officer
      Grants Financial Management Division
      Office of the Chief Financial Officer

      Jerry Conty
      Assistant Chief Financial Officer
      Grants Financial Management Division
      Office of the Chief Financial Officer


      Lucy Mungle
      Manager, Evaluation and Oversight Division
      Grants Financial Management Division
      Office of the Chief Financial Officer

      Richard P. Theis
      Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OJP Executive Secretariat
      Control Number 2013-1636




                                         - 20 -
                                                                APPENDIX V

           OFFICE OF THE INSPECTOR GENERAL
           ANALYSIS AND SUMMARY OF ACTIONS
            NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Office of Justice
Programs (OJP) and the John Marshall Law School (JMLS). JMLS’s
response letter is incorporated in Appendix III of this final report, and OJP’s
response is incorporated in Appendix IV of this final report.

    The following provides the OIG analysis of the responses and a
summary of actions necessary to close the report.


Recommendation Number:

1.     Closed. In its response to our recommendation to resolve the $647
       difference in the February 1, 2013, drawdown, JMLS stated that its
       inquiries of the Department of Treasury indicated that the
       Department of Justice's remittance of $22,574 was netted against a
       debit charge of $647 submitted by a Veterans-related government
       office. JMLS also stated that it corrected its grant records to reflect
       a receipt of $22,574 for that drawdown.

       In its response, OJP stated that it concurred with our
       recommendation. OJP further stated that it did not believe further
       action was needed to resolve the $647 difference in the February 1,
       2013, drawdown, and requested closure of this recommendation.
       According to OJP’s response, its records indicate that a drawdown of
       $22,574 was disbursed to JMLS on February 1, 2013. OJP also noted
       that JMLS’s response to the audit report acknowledged that the U.S.
       Department of the Treasury netted a $647 JMLS veterans-related
       government office charge against the U.S. Department of Justice’s
       remittance of $22,574. OJP also noted that JMLS stated that is has
       corrected its grant records to reflect receipt of the February 1, 2013
       drawdown of $22,574.

       We reviewed the documentation provided and believe it is sufficient
       to close this recommendation. Therefore, this recommendation is
       closed.

     2. Resolved. In its response to our recommendation to remedy the
        $15,455 in unallowable hotel conference expenditures that were
        charged to the grant, JMLS stated that the hotel arrangements were
        the most feasible solution available and that the conference
                                     - 21 -
  organizers were unaware of the cost limits specific to grant-funded
  conferences. JMLS also asked DOJ to consider an alternative solution
  of allowing the cost up to the allowable rate of $166 because the
  conference was approved and a crucial component in the
  achievement of program objectives.

  In its response, OJP stated that it concurred with our
  recommendation to remedy the $15,455 in unallowable hotel
  conference expenditures that were charged to the grant.

  This recommendation can be closed when we receive evidence that
  the $15,455 in unallowable costs has been remedied in an
  appropriate manner.

3. Resolved. In its response to our recommendation to ensure that
   JMLS submits corrected Federal Financial Reports (FFR) for reporting
   periods December 30, 2010, through December 31, 2012, JMLS
   explained its process for posting costs to its general ledger. JMLS
   further stated that it has prepared a schedule of revised FFRs and
   will correct the FFRs following the disposition of recommendation 2.

  OJP stated that it concurs with our recommendation to ensure that
  JMLS submits corrected Federal Financial Reports (FFR) for reporting
  periods December 30, 2010, through December 31, 2012. OJP
  stated that it would coordinate with JMLS to obtain a revised, final
  FFR that accurately reflects the cumulative federal expenditures
  incurred, as of the end of the project period.

  We agree that JMLS should be required to submit an accurate, final
  FFR. We also believe JMLS should be required to re-submit corrected
  FFRs for reporting periods December 30, 2010, through
  December 31, 2012, because the expenditures listed on these FFRs
  were inaccurate. If OJP believes it is not necessary for JMLS to
  submit these corrected FFRs, it should officially inform JMLS that it is
  not required to do so.

  This recommendation can be closed when we receive evidence that
  JMLS has submitted corrected FFRs for reporting periods
  December 30, 2010, through December 31, 2012, or OJP officially
  informs JMLS that it is not necessary for JMLS to do so and we
  receive evidence that JMLS has submitted a final, accurate FFR.




                                - 22 -
